7/26/2016

Cardholder Agreement

Cardholder Agreement
Close

CARDHOLDER AGREEMENT
The person (Cardholder) whose name appears on the face of the Visa Card (Card) by retaining, using or
permitting others to use such Card and the account represented by the Card, accepts the same subject to the
following terms and agrees with INTRUST Bank (Bank).
1. USING YOUR ACCOUNT: You, the Cardholder, authorize Bank to pay for your Card account, all items
reflecting purchases and cash advances made or obtained through the use of your Card account upon
presentment to Bank, and you promise to pay for all such purchases and cash advances, together with all
applicable INTEREST and fees, as hereafter set forth. You acknowledge that this account will not be used for
business purposes.
2. PAYMENT:
2.1 Bank will furnish you with a monthly statement for purchases and cash advances made on your account
and you agree to pay Bank in not less than 25 days from the closing date shown on the statement, either (a) the
New Balance, or (b) a minimum payment of 1% of all balances plus billed interest plus all past due amounts
plus any overlimit amount plus any new late payment fee; or $27, whichever is greater.
2.2 Any credits posted to your account will not affect the minimum monthly payment. Your failure to pay the
minimum payment each month by the payment due date will cause your account to be delinquent. Application
of payments will be at our discretion. If different APRs apply to different balances, we will allocate any amount
you pay in excess of the required minimum payment due first to the balance with the highest APR and any
remaining portion to the other balances in APR descending order. Each monthly statement will be considered
a correct statement unless you establish a billing error under the provisions of the Federal Truth in Lending Act.
2.3 Bank may accept checks or other types of payment showing "payment in full" or other language indicating
satisfaction of your debt, without waiving any of Bank's rights to receive full payment under this Agreement. You
must send this communication to the address in the Billing Rights Summary on your statement. Satisfaction of
your debt for less than the full amount due requires a written agreement, signed by an authorized Bank
associate.
2.4 Payments must be made by check, money order or electronically and payable in U.S. dollars. If you request
a payment by phone, a fee will apply and we may ask for security information, for your protection. Same day
payments by phone cannot be edited or cancelled. We are not obligated to accept any payment that is not
drawn on the U.S. Post Office or a financial institution located in the United States.
2.5 When you provide a check as payment, you authorize us either to use information from your check to make
a one­time electronic fund transfer from your account or to process the payment as a check transaction. When
we use information from your check to make an electronic fund transfer, funds may be withdrawn from your
account as soon as the same day we receive your payment. The statements are proof of payment and copies of
your checks are available for up to 2 years.
2.6 Without prior notice to you, we may refuse to accept or may accept in good faith, any check presented as a
payment on your account which is more than six (6) months old. We may process the payment before the date
shown on the check unless you have given us three (3) business days or more advance written notice that a
postdated check will be presented as payment. You must send the advance notice communication to the
address in the Billing Rights Summary on your statement.
3. GRACE PERIOD: See the Paying Interest section in the Table of Charges.
4. BALANCE SUBJECT TO INTEREST: We use an average daily balance method (including new
transactions) to calculate periodic INTEREST. We do this separately with each of your different balances.
These balances include, for example, purchases, balance transfers, cash advances, and different promotional
balances. We figure the periodic INTEREST by multiplying the daily balance for each of the balance categories
https://www.intrustbank.com/common/discprint.aspx?id=64

1/7

7/26/2016

Cardholder Agreement

by the daily periodic rate for each of those categories. Each daily periodic rate is calculated by dividing its
corresponding APR by 365. We do this for each day in the billing period. To get a daily balance, we start with
the balance as of the end of the previous day. We add any new transactions, fees, other charges, and debit
adjustments that apply to that category. We then subtract from that balance any payments, credits, or credit
adjustments that apply to that balance category and that are credited as of that day. We treat a credit balance
as a balance of zero. For each balance category, the balance subject to INTEREST is the average of the daily
balances during the billing period. If you multiply this figure for each balance category by its daily periodic rate
and by the number of days in the billing period, the result is the daily periodic INTEREST for each of your
different balance categories. We add up all the daily periodic INTEREST for the balance categories and the
sum of which is the total periodic INTEREST for the billing period. Rounding may cause minor variations.
5. BALANCE TRANSFERS:
5.1 A fee will apply to the amount of each balance transfer. Balance transfer transactions are purchase
transactions, but do not receive a grace period. INTEREST accrues from the date of posting. To avoid
INTEREST on new purchases after you transfer a balance, you must pay all balances on your account,
including the balances you transfer, in full by the first payment due date after the transfer. Otherwise, you will
incur INTEREST on new purchases due to the loss of the grace period, unless your purchase APR is 0%.
Balance transfers do not earn reward program points. See the Table of Charges for the fee amount.
5.2 The total amount(s) paid and transferred, including any related fees, cannot exceed your credit line, or
$15,000. You cannot transfer: any existing balances on any Bank accounts; any business debt; any debt that is
not owed by you; or any balances owed to creditors outside the United States. Bank reserves the right to refuse
any balance transfer request for any reason, including for revolving debt that Bank believes excessive.
6. CASH ADVANCE TRANSACTIONS: A cash advance fee will be charged to your account for each cash
advance transaction. Cash advance transactions are non­purchase transactions which include, but are not
limited to, ATM transactions, teller transactions, convenience checks, quasi cash advance transactions, and
overdraft cash advance transactions. Quasi cash advance transactions are cash advance transactions which
include, but are not limited to, wire transfers, foreign currency, traveler's checks, money orders, wagering, and
remote stored value. See the Table of Charges for each fee amount.
7. MINIMUM INTEREST: If your Card is charged INTEREST, the charge will be no less than $1.50. This amount
will appear as a fee on your statement.
8. OVERDRAFT PROTECTION SERVICE TERMS FOR INTRUST CHECKING ACCOUNT: If you have
overdraft protection, you authorize INTRUST Bank to advance funds to your INTRUST checking account in the
exact amount necessary to pay any item or transaction drawn against your checking account and presented
that day in excess of the available balance in the account and to bring your available balance to zero. This
advance will only occur when the overdraft is greater than $5.00. The account will not be considered
overdrawn.
No such advance will be made from your INTRUST credit card account: (1) any time the account is not current;
or (2) if there is insufficient available credit on the account. If the available credit on your credit card is not
sufficient to bring the available balance on your checking account to zero, the amount of the advance shall be
the available credit. If the advance amount is not enough to bring the balance on your checking account to
zero, the checking account may be considered overdrawn.
Any advance from your INTRUST credit card account shall constitute a cash advance under this Agreement
and you will be charged an overdraft cash advance fee for each advance. This fee will be in addition to the
amount of the advance. See the Table of Charges for the fee amount. You understand that all advance requests
from your INTRUST credit card account are subject to prior authorization and that Bank may cancel this
overdraft protection at any time.
If the total overdraft in your checking account at the end of the business day is $5.00 or less, the checking
account will be considered overdrawn but funds from your INTRUST credit card will not be advanced and no
overdraft cash advance fee will be assessed.
Bank shall not be responsible for your payment being returned for reason of Bank's failure to make an advance
of funds. At least one owner must be the same on the checking account and the INTRUST credit card account.
Signatures are required of all owners on the INTRUST credit card account.
9. ANNUAL FEE: None.

https://www.intrustbank.com/common/discprint.aspx?id=64

2/7

7/26/2016

Cardholder Agreement

10. LATE PAYMENT FEE: A late payment fee will be debited to your account as a purchase if your payment is
not received by the payment due date. For your first instance of a late payment, the fee will not exceed $27. If
the second instance occurs within six (6) months of the first instance, the fee will not exceed $37. At no time will
the late payment fee exceed the amount of the required minimum monthly payment described in 2.1. These
fees are listed in the Table of Charges.
11. LIABILITY FOR UNAUTHORIZED USE OF YOUR CARD AND LOSS OF CARD: You may be liable for the
unauthorized use of your Card if, based on substantial evidence, you were grossly negligent in the handling of
the account or Card. Please immediately notify Bank in writing at P.O. Box 2235, Wichita, KS 67201, or orally by
calling 800­222­7458, of loss, theft or possible unauthorized use of your Card or convenience checks.
12. LIABILITY AND AUTHORIZED USERS: If more than one Card is issued on the account, all Cardholders
holding Cards with the same account number shall be jointly and severally liable on the account. You may
allow authorized users on your account in the following ways: (1) by notifying us that you want someone added
to your account as an authorized user; (2) by lending your Card or account number to another; or (3) by any
other way in which you would be legally considered to have allowed another to use your account or to be
legally prevented from denying that you did so. Carefully consider allowing anyone to become an authorized
user because you authorize the person to use your account to the same extent that you can, including but not
limited to, making purchases, cash advances, balance transfers and allowing others to use your account. Your
account does not permit you to limit the nature or amount of authority you give to any authorized user and you
will not attempt to do so. An authorized user's authority will continue until you both notify Bank that you are
terminating that authority and you physically retrieve the Card. If you cannot retrieve the Card, you will remain
liable for any transactions that we cannot prevent after you notify us.
13. LEGAL TRANSACTIONS:
13.1 You will only use your Card for transactions that are legal where you reside. Display of a Visa logo by an
online merchant does not mean that an Internet transaction is legal where you live. Bank will not be liable if you
engage in an illegal transaction.
13.2 Bank complies with the Unlawful Internet Gambling Enforcement Act of 2006. This Act requires us to
establish policies and procedures to identify and block, or otherwise prevent or prohibit, unlawful Internet
gambling transactions. For example, Internet gambling transactions may be illegal in your state.
14. AUTHORIZATIONS: Some transactions require our prior authorization. Bank may limit the number of
authorizations we give in a day. Bank may deny authorization if you are delinquent, if Bank suspects fraudulent
activity or for other reasons. You are liable for any transaction Bank authorizes, even if Bank should not have
authorized it, because you are or would be delinquent as a result of the transaction.
15. ESTABLISHED CREDIT LIMIT: You agree to keep the total balance on your account within the credit limit
established by Bank, which has been previously disclosed to you. Bank may change your credit limit at any
time. Bank may, but is not required to, approve transactions that exceed your available credit limit. If your
account balance exceeds your credit limit and you fail to pay the entire minimum monthly payment shown on
your next monthly statement, which will include all sums necessary to reduce your balance to your credit limit
as required in the Payment section of this Agreement, your account will be reported as delinquent and past due
on your next monthly statement. At Bank's discretion, you will not be permitted to access the amount of credit in
your account equal to the amount of any payment you send to the Bank for a period of 15 days from the date
your payment was posted to your account.
16. IMMEDIATE REPAYMENT/TERMINATION OF ACCOUNT: Bank may declare the entire amount of your
account immediately due and payable, subject to provisions of law, upon the occurrence of one of the following
events: (1) your account is delinquent or past due, (2) your account balance exceeds the established credit
limit, (3) upon your death, bankruptcy or insolvency, (4) the prospect of payment or performance is significantly
impaired. Bank may, at its sole discretion, reduce your credit limit, decline to make further advances on your
account, decline to reissue any Card or convenience checks on your account, revoke or close your account. If
you do not use your Card at least once in 12 months, Bank may, as permitted by applicable law, close your
account. If your account is closed, you remain responsible for paying any amounts owed on the account
according to the terms of this Agreement. If you move outside of the United States after your account is opened,
your Card may not be reissued at its next expiration date.
17. AMENDMENTS: This Agreement may be amended by Bank at any time; this may include a change to the
APR, and/or fees.
18. ACCEPTANCE OF CARD OR CONVENIENCE CHECKS: Bank is not responsible for the failure of any
https://www.intrustbank.com/common/discprint.aspx?id=64

3/7

7/26/2016

Cardholder Agreement

merchant or financial institution to accept or honor your Card or convenience checks. A convenience check
may be returned unpaid if there is not enough available credit on your account to pay it, if your Card or
convenience checks have been reported lost or stolen, if the convenience check is post­dated (shows a future
date) or a credit review indicates a potential problem with your account. If you make a purchase on your
account, and the merchant discloses a policy such as "no returns," "no refunds," "no return or credit without
receipt," "as is," "store credit only," "all sales final," or similar statements, you will be bound by that policy.
19. OTHER FEES:
19.1 Unless a billing error has been disclosed in your monthly statement, your account may be debited as a
purchase for each copy requested by you of a sale, refund or cash advance slip; or monthly statement. See the
Table of Charges for the fee amounts.
19.2 A return payment fee will be debited to your account as a purchase for each payment you make on your
account that is returned to us for any reason. For your first instance of a return check, the fee will not exceed
$27. If the second instance occurs within six (6) months of the first instance, the fee will not exceed $38.
20. FOREIGN TRANSACTION FEE:
20.1 A foreign transaction fee will be assessed on all transactions where the merchant country differs from the
country of the card Bank.
20.2 A foreign transaction fee will also be assessed if you make a transaction in a currency other than U.S.
dollars. In that case, Visa will convert the charge or credit in to a U.S. dollar amount. The exchange rate on the
processing date may differ from the rate on the date of your transaction. Visa uses an exchange rate of either:
(1) a rate selected by Visa or from the range of rates available in wholesale currency markets for the applicable
central processing date, this rate may vary from the rate Visa itself receives, or (2) the government­mandated
rate in effect for the applicable central processing date. In each instance, the exchange rate is increased by an
adjustment factor determined by the Bank.
20.3 The foreign transaction fee is subject to change without notice and is currently 3% of the U.S. dollar
amount of the transaction, of which Bank receives 2% and Visa receives 1%.
21. UPDATED FINANCIAL INFORMATION: Bank may request from consumer reporting agencies from time to
time new consumer credit reports on you or request new financial information directly from you for the purpose
of updating Bank's records. Bank may rely on the contents of such reports or other empirically derived financial
information to close your account and reduce the credit line on your account.
22. NOT SECURED CREDIT: Your account is not secured credit. Bank retains no security regardless of any
other agreement you may have with Bank.
23. COLLECTION COSTS AND ATTORNEY FEE: In the event Bank must incur collection costs or attorney fees
in connection with your account, as permitted by applicable law, you agree to pay the reasonable costs of
collection, including, but not limited to, court costs, attorney fees and collection agency fees in an amount not to
exceed 15% of the unpaid balance on your account.
24. SIGNING YOUR CARD: Your Card must be signed by the person whose name is embossed on it in order
to be valid.
25. MOBILE DEVICES: Smart phones, tablets, or other mobile devices may download, store, and/or access
account information, for instance through a mobile wallet, that may enable you to use the mobile device to
purchase goods or services, make a balance transfer or cash advance. In certain instances, those transactions
will replicate using your Card to make a transaction on the internet with your computer. In other instances, the
phone or mobile device will act as if it were the Card itself. Applications that enable your mobile device will
have unique terms governing them. Read these terms carefully. Transactions made through these applications
are governed by this Agreement.
26. TELEPHONE CONTACT AND MONITORING: Bank, or its agents may contact you at any telephone
number you provide Bank, including a cell number, or another number that you later convert to a cell number.
You agree to receive calls, text messages and voice messages, including pre­recorded messages, at that
number, including the use of automatic dialing technology for informational and Account service calls.
Message and data rate may apply. You may contact us any time to change your phone preferences. Bank may
listen to and record telephone calls between you and us for the purpose of monitoring and improving the
quality of service you receive.

https://www.intrustbank.com/common/discprint.aspx?id=64

4/7

7/26/2016

Cardholder Agreement

27. ACCOUNT NOTIFICATION: Bank may contact you from time to time regarding your Card and account.
Account materials (Cards, statements and other notices) will be sent to the liable party at the billing address.
That person will be responsible for delivering those materials to the other liable parties and authorized users.
Notice to any of you will be considered notice to all of you.
28. GOVERNING LAW/ASSIGNMENT: This Agreement is governed by the laws of Kansas and the invalidity of
any term of this Agreement shall not affect the validity of any other term or condition. You agree that we may
assign and transfer your account, this Agreement and our rights and obligations hereunder to others. The
person(s) to whom we assign this Agreement shall be entitled to all of our rights under this Agreement.
29. BILLING RIGHTS: KEEP THIS NOTICE FOR FUTURE USE: This notice contains important information
about your rights and our responsibilities under the Fair Credit Billing Act.
29.1 Notify Us In Case of Errors or Questions About Your Bill. If you think your bill is wrong, or if you need
more information about a transaction on your bill, write us on a separate sheet at the address listed on your bill.
Write to us as soon as possible. We must hear from you no later than 60 days after we sent you the first bill on
which the error or problem appeared. You can telephone us, but doing so will not preserve your rights. In your
letter, give us the following information:
Your name and account number.
The dollar amount of the suspected error.
Describe the error and explain, if you can, why you believe there is an error.
If you need more information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or checking account, you
can stop the payment on any amount you think is wrong. To stop the payment your letter must reach us three
business days before the automatic payment is scheduled to occur.
29.2 Your Rights and Our Responsibilities After We Receive Your Written Notice. We must acknowledge
your letter within 30 days, unless we have corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the bill was correct. After we receive your letter, we cannot try to collect any
amount you question, or report you as delinquent. We can continue to bill you for the amount you question,
including INTEREST, and we can apply any unpaid amount against your credit limit. You do not have to pay
any questioned amount while we are investigating, but you are still obligated to pay the parts of your bill that
are not in question. If we find that we made a mistake on your bill, you will not have to pay any INTEREST
related to any questioned amount. If we didn't make a mistake, you may have to pay INTEREST, and you will
have to make up any missed payments on the questioned amount. In either case, we will send you a statement
of the amount you owe and the date that it is due. If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not satisfy you and you write to us within ten days
telling us that you still refuse to pay, we must tell anyone we report you to that you have a question about your
bill. And, we must tell you the name of anyone we reported you to. We must tell anyone we report you to that
the matter has been settled between us when it finally is. If we don't follow these rules, we can't collect the first
$50 of the questioned amount, even if your bill was correct.
29.3 Special Rule for Credit Card Purchases. If you have a problem with the quality of property or services
that you purchased with a credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the property or services. There are two
limitations on this right: (a) you must have made the purchase in your home state or, if not within your home
state, within 100 miles of your current mailing address; and (b) the purchase price must have been more than
$50. These limitations do not apply if we own or operate the merchant, or if we mailed you the advertisement
for the property or services.

Table of Charges
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

12.24% for Platinum Account
15.24% for Student Account
These APRs may vary with the market based on the Prime Rate*.

APR for Balance
Transfers

0% introductory APR for 12 billing cycles.
After that, 12.24% for Platinum and 15.24% for Student.

https://www.intrustbank.com/common/discprint.aspx?id=64

5/7

7/26/2016

Cardholder Agreement

These APRs may vary with the market based on the Prime Rate*.
APR for Cash Advances

24.99%

Penalty APR and
When it Applies

27.99%
This APR may be applied if you make a late payment or your account goes
two billing cycles past due.
How Long Will the Penalty APR Apply? If your APRs are increased for the
above reason(s), the Penalty APR will apply until you make six (6) consecutive
payments when due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date each month.
If you paid in full the New Balance on your previous statement by the Payment
Due Date, no interest will be applied to new purchases, or any portion of a
new purchase, paid by the current statement payment due date.
We will begin charging interest on cash advances and balance transfers on
the date the transactions post.

Minimum Interest Fee

If you are charged interest, the charge will be no less than $1.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
www.consumerfinance.gov/learnmore

Fees
Annual Fee

None.

Transaction Fees
• Balance Transfer
• Cash Advance
• Quasi Cash Advance
• Overdraft Cash Advance
• Foreign Transaction

3% of the amount of each transfer ($10 minimum, $250 maximum)
5% of the amount of each advance ($10 minimum)
5% of the amount of each advance ($20 minimum)
$10 for each monetary transfer made to your INTRUST Bank deposit
account
3% of the U.S. dollar amount of the transaction

Penalty Fees
• Late Payment
• Returned Payment

Up to $37
Up to $38

Other Fees
• Per copy of monthly billing
statement
• Per copy of merchant
sales receipt

$3
$5

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)".
Loss of Introductory APR: We may end the introductory APR and apply the Penalty APR if you make a late
payment or your account goes two billing cycles past due.
Billing Rights: Information on your billing rights to dispute transactions and how to exercise those rights is
provided in this Agreement.
https://www.intrustbank.com/common/discprint.aspx?id=64

6/7

7/26/2016

Cardholder Agreement

*The APR for purchases is variable and is determined by adding percentage points (the "Margin") to the Prime
Rate (the "Index"). If the Prime Rate increases/decreases, it will cause the APR to increase/decrease
accordingly. We review the Prime Rate published in the Money Rates section of the Wall Street Journal on the
last business day of each month (the "Change Date"). If a change in the Prime Rate causes the APR to change,
we put the new APR into effect as of the billing period for which we calculate the APR; then we apply the new
APR to any existing variable rate balances. An increase in the Index may result in an increase in the amount of
any INTEREST, minimum payment and outstanding balance.
Platinum Account: As of February 1, 2016, the APR for purchases was 3.50% (Index) + 8.74% (Margin) =
12.24%, which corresponds to a daily periodic rate of 0.0335%.
Student Account: As of February 1, 2016, the APR for purchases was 3.50% (Index) + 11.74% (Margin) =
15.24%, which corresponds to a daily periodic rate of 0.0417%.
All Accounts: The 0% introductory APR is good on all balance transfers completed within 45 days of your
account opening. Effective on the 13th billing cycle after your account is opened, the APR will be the standard
balance transfer APR. Balance transfers completed after 45 days of your account opening will receive the
standard balance transfer APR.
The APR for all cash advance transactions is fixed at 24.99%, which corresponds to a daily periodic rate of
0.0685%.
The APR for Penalty pricing is fixed at 27.99%, which corresponds to a daily periodic rate of 0.0766%.
We may change the account rate, fees and other cost information at any time in accordance with applicable
law.

INTRUST Bank appreciates your business.
For additional credit or to inquire about your account:
Visit intrustbank.com/cards for online account access.
Call 316­383­1354 or 800­222­7458; press "0" to speak to a Customer Service representative. We are
available Monday through Friday, 7 a.m.­8 p.m. or Saturday, 8 a.m.­6 p.m. CT.
To report lost or stolen cards: call 800­222­7458, 24­hours a day.
INTRUST Bank
105 N. Main
Wichita, Kansas 67202

INT 02/16

https://www.intrustbank.com/common/discprint.aspx?id=64

7/7

